APPENDIX "A"

United States Gourt of Appeals

Fifth Circuit

ORDER OF FINAL JUDGMENT
Dated September 08, 2020
(2 pages)

APPENDIX "A"

A

r
uase: iy-4Ub9b

Document: uubibbbbyn

page: 1

Date Hied: uy/Ub/2U2U

L_

0Emteb States Court of Appeals:
for tlje Jfiftf) Circuit
No. 19-40696
A True Copy
Certified order issued Sep 08, 2020

Noel Christopher Turner,

Ul. ComCa
Clerk,
•k, U.S. Court of Ap peals, Fifth Circuit
Petitioner—Appellant,

versus
Bobby Lumpkin, Director, Texas Department of
Criminal Justice Correctional Institutions Division,
Respondent—Appellee.

Appeal from the United States District Court
for the Eastern District of Texas
USDC No. 4:17-CV-326
USDC No. 4:17-CV-327
USDC No. 4:17-CV-328

ORDER:
Noel Christopher Turner, Texas prisoner # 1861086, pleaded guilty
to conspiracy to commit arson, sexual assault of a child, and credit card or
debit card abuse. He was sentenced to concurrent terms of imprisonment of
28 years for the conspiracy offense, five years for the sexual assault of a child,
and one year for credit card or debit card abuse. Turner subsequently filed a
28 U.S.C. § 2254 petition in each case. The district court consolidated the
cases and dismissed the petitions as time barred. Turner now seeks a

A

r
uase: iy-4Ubyb

uocument: uubibbbbyn

page: i

Date Hied: oy/Ub/2U2U

No. 19-40696

certificate of appealability (COA) to appeal that dismissal. He argues that he
should be able to raise his § 2254 claims because he was actually innocent of
the crimes and is entitled to equitable tolling.
A COA may be issued “only if the applicant has made a substantial
showing of the denial of a constitutional right.” 28 U.S.C. § 2253(c)(2).
When the district court’s denial of federal habeas relief is based on
procedural grounds, “a COA should issue when the prisoner shows, at least,
that jurists of reason would find it debatable whether the petition states a
valid claim of the denial of a constitutional right and that jurists of reason
would find it debatable whether the district court was correct in its
procedural ruling.” Slack v. McDaniel, 529 U.S. 473, 484 (2000). Turner
has not made the requisite showing. See id. Accordingly, Turner’s motion
for a COA is DENIED.
■O-

James C. Ho
United States Circuit Judge

2

APPENDIX "B"

United States Court of Appeals

Fifth Circuit

MOTION FOR RECONSIDERATION
DENIED
Dated October 07, 2020
(3 pages)

APPENDIX "B"

United States Court ofAppeals
FIFTH CIRCUIT
OFFICE OF THE CLERK
LYLE W. CAYCE
CLERK

TEL. 504-310-7700
600 S. MAESTRI PLACE,
Suite 115
NEW ORLEANS, LA 70130

October 07, 2020
MEMORANDUM TO COUNSEL OR PARTIES LISTED BELOW:
No. 19-40696

Noel
USDC
USDC
USDC

Turner v. Bobby Lumpkin, Director
No. 4:17-CV-326
No. 4:17-CV-327
No. 4:17-CV-328

Enclosed is an order entered in this case.

Sincerely,
LYLE W. CAYCE, Clerk
'TU-'K-C—

By:
Jann M. Wynne, Deputy Clerk
504-310-7688

Mr. Nathan Tadema
Mr. Noel Turner

SHnitcb States Court of Appeals
for tfje Jftftf) Circuit
No. 19-40696

Noel Christopher Turner,
Petitioner—Appellant,
versus
Bobby Lumpkin, Director, Texas Department of Criminal
Justice Correctional Institutions Division,
Respondent—Appellee.

Appeal from the United States District Court
for the Eastern District of Texas
USDC No. 4:17-CV-326

Before Willett, Ho, and Duncan, Circuit Judges.
Per Curiam:
IT IS ORDERED that Appellant’s motion for leave to file out of
time the motion for reconsideration is GRANTED.
A member of this panel previously denied the motion for certificate of
appealability.
The panel has considered Appellant’s motion for
reconsideration.

i

IT IS FURTHER ORDERED that the motion for reconsideration
is DENIED.

APPENDIX "C"

United States District Court
Eastern District of Texas
Sherman Division

ORDER OF DISMISSAL
and

FINAL JUDGMENT
Dated July 08, 2019
(4 pages)

APPENDIX "C"

‘ Case: 4:17-cv-00326-ALM-CAN

Document #: 32-1

Date Filed: 07/08/2019

Page 1 of 3

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF TEXAS
SHERMAN DIVISION
NOEL CHRISTOPHER TURNER, #1861086
VS.
DIRECTOR, TDCJ-CID

§
§
§
§
§

CIVIL ACTION NO. 4:17cv326
CONSOLIDATED WITH CIVIL ACTION
NOS. 4:17cv327 AND 4:17cv328

ORDER OF DISMISSAL
Petitioner Noel Christopher Turner, an inmate confined in the Texas prison system, filed the
above-styled and numbered petitions for a writ of habeas corpus pursuant to 28 U.S.C. § 2254. The
petitions were referred to United States Magistrate Judge Christine A. Nowak, who issued a Report
and Recommendation concluding that the petitions should be dismissed as time-barred. Petitioner has
filed objections.
Petitioner is challenging three Grayson County convictions. On May 23,2013, after pleas of
guilty and pursuant to a plea agreement, he was sentenced to 28 years of imprisonment for conspiracy
to commit arson, 5 years of imprisonment for sexual assault of a child, and 1 year of imprisonment for
credit card or debit card abuse, with the sentences running concurrently. He did not make any attempt
to challenge the convictions in state court until September 2016. The present petitions were not filed
until May 2, 2017.
Under 28 U.S.C. § 2244(d)(1)(A), Petitioner had one year from the date his convictions
became final to file the present petitions, absent tolling provisions. His convictions became final on
June 24, 2013. The present petitions were due no later than June 24, 2014, in the absence of tolling
provisions. The petitions were not filed until almost three years later on May 2, 2017. As was
previously noted, he did not file anything in state court until September 2016. By then, the present
petitions were already time-barred by more than two years. The pendency of the state applications did
not effectively toll the deadline of June 24, 2014.
In both his petitions and objections, Petitioner argues that he is entitled to equitable tolling.
The Supreme Court has held that the AEDPA’s statute of limitations may be tolled for equitable
1

o

Case: 4:17-cv-00326-ALM-CAN

Document #: 32-1

Date Filed: 07/08/2019

Page 2 of 3

reasons. Holland v. Florida, 560 U.S. 631, 645 (2010). A petitioner is entitled to equitable tolling
only if he shows (1) that he has been pursuing his rights diligently, and (2) that some extraordinary
circumstances stood in his way and prevented timely filing. Id. at 649. Petitioner has shown neither.
He attached copies of several letters he wrote concerning his convictions, but he did not show that he
pursued his rights diligently or that extraordinary circumstances stood in his way and prevented timely
filing.
Petitioner also argues in both his petition and objections that he is entitled to relief based on
actual innocence. The Supreme Court has held that “actual innocence, if proved, serves as a gateway
through which a petitioner may pass whether the impediment is a procedural bar ... or ... the
expiration of the statute of limitations.” McQuiggin v. Perkins, 569 U.S. 383, 386 (2013). See also
Tamayo v. Stephens, 740 F.3d 986, 990 (5th Cir. 2013). “To be credible, such a claim requires
petitioner to support his allegations of constitutional error with new reliable evidence - whether it be
exculpatory scientific evidence, trustworthy eyewitness accounts, or critical physical evidence - that
was not presented at trial. Because such evidence is obviously unavailable in the vast majority of
cases, claims of actual innocence are rarely successful.” Schlup v. Delo, 513 U.S. 298, 324 (1995).
“[A] petitioner does not meet the threshold requirement unless he persuades the district court that, in
light of the new evidence, no juror, acting reasonably, would have voted to find him guilty beyond a
reasonable doubt.” Id. at 329. Petitioner’s objections focus on legal arguments, as opposed to factual
innocence, but “[ajctual innocence means ‘factual innocence andnotmere legal insufficiency.’” United
States v. Jones, 172 F.3d 381,384 (5th Cir. 1999). He has not shown actual innocence. Furthermore,
as the Magistrate Judge explained, courts have been unwilling to allow prisoners to invoke McQuiggin
after pleading guilty. Petitioner knowingly and voluntarily pled guilty, and he has not made a viable
showing of actual innocence; thus, the actual innocence gateway for consideration of his claims is not
available.
The Report of the Magistrate Judge, which contains her proposed findings of fact and
recommendations for the disposition of such action, has been presented for consideration, and having
made a de novo review of the obj ections raised by Petitioner to the Report, the Court is of the opinion
that the findings and conclusions of the Magistrate Judge are correct and Petitioner’s objections are
2

, • '

Case: 4:17-cv-00326-ALM-CAN

Document#: 32-1

Date Filed: 07/08/2019

Page 3 of 3

4.

without merit. Therefore, the Court hereby adopts the findings and conclusions of the Magistrate
Judge as the findings and conclusions of the Court. It is accordingly
ORDERED that the petitions for a writ of habeas corpus are DENIED and the cases are
DISMISSED with prejudice as time-barred. A certificate of appealability is DENIED. All motions
/

not previously ruled on are DENIED.
SIGNED this 8th day of July, 2019.

AMOS L. MAZZANT
& V
UNITED STATES DISTRICT JUDGE

3

'

Case: 4:17-cv-00326-ALM-CAN

Document #: 33-1

Date Filed: 07/08/2019

Page 1 of 1

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF TEXAS
SHERMAN DIVISION
NOEL CHRISTOPHER TURNER, #1861086

§
§
§
§
§

VS.
DIRECTOR, TDCJ-CID

CIVIL ACTION NO. 4:17cv326
CONSOLIDATED WITH CIVIL ACTION
NOS. 4:17cv327 AND 4:17cv328

FINAL JUDGMENT
The Court having considered Petitioner’s cases and rendered its decision by opinion issued this
same date, it is hereby ORDERED that the petitions for a writ of habeas corpus are DISMISSED with
prejudice.
SIGNED this 8th day of July, 2019.

AMOS L. MAZZANT
& V
UNITED STATES DISTRICT JUDGE

1

\

APPENDIX "D"

United States District Court
Eastern District of Texas

Sherman Division

REPORT AND RECOMMENDATION
OF UNITED STATES MAGISTRATE JUDGE
Dated May 23, 2019
(8 pages)

APPENDIX "D"

‘

Case: 4:17-cv-00326-ALM-CAN

Document#: 27-1

Date Filed: 05/23/2019

Page lot8

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF TEXAS
SHERMAN DIVISION
NOEL CHRISTOPHER TURNER, #1861086

§

VS.

§

DIRECTOR, TDCJ-CID

§

CIVIL ACTION NO. 4:17cv326
CONSOLIDATED WITH CIVIL ACTION
NOS. 4:17cv327 AND 4:17cv328

REPORT AND RECOMMENDATION
OF UNITED STATES MAGISTRATE JUDGE
Petitioner Noel Christopher Turner, an inmate confined in the Texas prison system, proceeding
pro se, filed the above-styled and numbered petitions for a writ of habeas corpus pursuant to 28 U.S .C.
§ 2254. The petitions were referred for findings of fact, conclusions of law and recommendations for
the disposition of the cases.
Procedural Background
Petitioner is challenging three Grayson County convictions. On May 23,2013, after pleas of
guilty and pursuant to a plea agreement, he was sentenced to 28 years of imprisonment for conspiracy
to commit arson, 5 years of imprisonment for sexual assault of a child, and 1 year of imprisonment for
credit card or debit card abuse, with the sentences running concurrently. He did not appeal the
convictions.
Over three years later, Petitioner filed one application for a writ of habeas corpus in state court
on September 15,2016, and two other applications on September 20,2016. On February 8,2017, the
Texas Court of Criminal Appeals dismissed the application regarding the credit card or debit card
abuse conviction since it had been discharged. On the same day, the remaining two applications were
denied without written order on findings of the trial court without a hearing.
The present petitions (Dkt. #1) were filed in this Court on May 12,2017. Petitioner states that
he placed the petitions in the prison mailing system on May 2, 2017. The petitions are deemed filed

1

•V

'

Case: 4:17-cv-00326-ALM-CAN

Document#: 27-1

Date Filed: 05/23/2019

Page 2 of 8

on May 2,2017, in accordance with the federal “mailbox rule.” Spotville v. Cain, 149 F.3d 374,377
(5th Cir. 1998). Petitioner argues that he is entitled to relief for the following reasons:
1.

He was denied counsel during a preliminary hearing;

2.

Search warrants were unconstitutional;

3.

Guilty plea was involuntary and he is factually innocent;

4.

Ineffective assistance of counsel;

5.

He was denied counsel during a motion hearing;

6.

Prosecution failed to disclose evidence;

7.

The range of puni shment exceeded the statutory maximum; and

8.

His sentence for his conspiracy to commit arson conviction was unconstitutionally
enhanced.

The Director filed a response (Dkt. #17) on January 23,2019. Petitioner filed a response (Dkt. #25)
on March 4, 2019.
Statute of Limitations
On April 24,1996, the Antiterrorism and Effective Death Penalty Act of 1996 (“AEDPA”) was
signed into law. The law made several changes to the federal habeas corpus statutes, including the
addition of a one year statute of limitations. 28 U.S.C. § 2244(d)(1). AEPDA provides that the one
year limitations period shall run from the latest of four possible situations. Section 2244(d)(1)(A)
specifies that the limitations period shall run from the date a judgment becomes final by the conclusion
of direct review or the expiration of the time for seeking such review. Section 2244(d)( 1 )(B) specifies
that the limitations period shall run from the date an impediment to filing created by the State is
removed. Section 2244(d)(1)(C) specifies that the limitations period shall run from the date in which
a constitutional right has been initially recognized by the Supreme Court and made retroactively
applicable to cases on collateral review. Section 2244(d)(1)(D) states that the limitations period shall
run from “the date on which the factual predicate of the claim or claims presented could have been
discovered through the exercise of due diligence.” Section 2244(d)(2) also provides that the time
during which a properly filed application for State post-conviction or other collateral review with
2

1

•

Case: 4:17-cv-00326-ALM-CAN

Document#: 27-1

Date Filed: 05/23/2019

Page 3 of 8

respect to the pertinent judgment or claim is pending shall not be counted toward any period of
limitation.
In the present case, the appropriate section to employ is S ection 2244(d)( 1)(A). Petitioner was
sentenced on May 23, 2013. He did not file a notice of appeal; thus, the convictions became final
thirty days later. Egerton v. Cockrell, 334 F.3d 433, 435 (5th Cir. 2003); Scott v. Johnson, 227 F.3d
260, 262 (5th Cir. 2000). The convictions became final on Monday, June 24, 2013. The present
petitions were due no later than June 24, 2014, in the absence of tolling provisions. They were not
filed until almost three years later on May 2, 2017.
The statutory tolling provisions specify that “[t]he time during which a properly filed
application for State post-conviction or other collateral review with respect to the pertinent judgment
or claim is pending shall not be counted toward any period of limitation.” 28 U.S.C. § 2244(d)(2). .
Petitioner did not file an application for a writ of habeas corpus in state court until September 15,2016.
By then, the present petitions were already time-barred by more than two years. The pendency of the
state applications did not effectively toll the statute of limitations. The present petitions were filed too
late.
The Supreme Court has held that the AEDPA’s statute of limitations may be tolled for
equitable reasons. Holland v. Florida, 560 U.S. 631,645 (2010). A petitioner is entitled to equitable
tolling only if he shows (1) that he has been pursuing his rights diligently, and (2) that some
extraordinary circumstances stood in his way and prevented timely filing. Id. at 649. Petitioner has
shown neither. He mentions delays associated with an inadequate law library system, but this does not
constitute extraordinary circumstances. Moreover, even if the delays associated with an inadequate
law library could be viewed as extraordinary circumstances, he has not shown that he pursued his
rights diligently. In his response, Petitioner mentions he wrote letters to obtain documents, but he still
failed to show diligence. He is not entitled to equitable tolling.
Actual Innocence
The Supreme Court has held that “actual innocence, if proved, serves as a gateway through
which a petitioner may pass whether the impediment is a procedural bar... or ... the expiration of
3

'

Case: 4:17-cv-00326-ALM-CAN

Document#: 27-1

Date Filed: 05/23/2019

Page 4 of 8

the statute of limitations.” McQuiggin v. Perkins, 569 U.S. 383, 386 (2013). See also Tamayo v.
Stephens, 740 F.3d 986, 990 (5th Cir. 2013). “To be credible, such a claim requires petitioner to
support his allegations of constitutional error with new reliable evidence - whether it be exculpatory
scientific evidence, trustworthy eyewitness accounts, or critical physical evidence - that was not
presented at trial. Because such evidence is obviously unavailable in the vast majority of cases, claims
of actual innocence are rarely successful.” Schlup v. Delo, 513 U.S. 298,324 (1995). “[A] petitioner
does not meet the threshold requirement unless he persuades the district court that, in light of the new
evidence, no juror, acting reasonably, would have voted to find him guilty beyond a reasonable doubt.”
Id. at 329. “Actual innocence means ‘factual innocence and not mere legal insufficiency.’” United
States v. Jones, 172 F.3d 381, 384 (5th Cir. 1999). A mere assertion of “stale factual innocence” is
unpersuasive. Drew v. Scott, 28 F.3d 460, 462 (5th Cir. 1994).
The Director persuasively argues that Petitioner fails to present new, reliable evidence which
would sway a reasonable juror to change his or her verdict from guilty in any of his convictions.
Petitioner initially alleges in his memorandum that he is actually innocent in light of illegal search
warrants used to obtain evidence. His claim does not involve factual innocence. Petitioner also asserts
that the credit card was issued in his name; thus, he did not defraud himself. In response, the Director
appropriately observes that Petitioner knew this at the time he pled guilty. In the sexual assault case,
Petitioner argues that he had an alibi during the sexual assault, arguing that his attorney failed to
produce evidence of a bank statement showing that he was purchasing a bed around the time of the
assault and witnesses who would testify as to his whereabouts on that night. In support of the claim,
Petitioner has offered nothing other than conclusory allegations and bald assertions, which are
insufficient to support a petition for a writ of habeas corpus. See Miller v. Johnson, 200 F.3d 274,282 7
(5th Cir. 2000); Koch v. Puckett, 907 F.2d 524, 530 (5th Cir. 1990); Ross v. Estelle, 694 F.2d 1008,
1011 (5th Cir. 1983). The Director persuasively argues that Petitioner’s claims about his conspiracy
to commit arson conviction are likewise conclusory. Petitioner has not submitted “new, reliable
evidence” that was not available at the time he pled guilty.

4

“

Case: 4:17-cv-00326-ALM-CAN

Document#: 27-1

Date Filed: 05/23/2019

Page 5 of 8

In addition to the foregoing, the Director observes that Petitioner’s evidence of innocence is
insufficient to demonstrate that it is more likely than not that no reasonable juror would have convicted
him in light of the newly presented evidence, especially in light of his guilty plea. Schlup, 513 U.S.
at 327. The Director added that she fails to see and Petitioner fails to show how the name on the credit
card is dispositive of his credit card/debit card abuse conviction. And, as Petitioner’s counsel points
out, the victim in the sexual assault case “was never certain of the exact day and time of the sexual
assault” so any evidence regarding an alibi is unnecessary to undermine the victim’s testimony about
when the assault occurred. SHCR-01 at 177-78 (attorney affidavit). Moreover, Petitioner pled guilty
and confessed to committing the crimes at issue and offers little to show his pleas were involuntary.
The evidence he cites in support of his “innocence” simply is not the type of evidence contemplated
in Schlup. See Schlup, 513 U. S. at 324 (“To be credible, [an actual innocence] claim requires petitioner
to support his allegations of constitutional error with new reliable evidence - whether it be exculpatory
scientific evidence, trustworthy eyewitness accounts, or critical physical evidence - that was not
presented at trial.”). The Director persuasively argues that since Petitioner offers insufficient evidence
to prove actual innocence, he cannot meet the exception recognized in McQuiggin.
The Court observes that Petitioner repeatedly asserts that he is seeking relief based on actual
innocence of a type discussed in Herrera v. Collins, 506 U.S. 390 (1993). In that case, however, the
Supreme Court held that a claim of actual innocence does not state an independent, substantive
constitutional claim and does not provide a basis for federal habeas relief. Id. at 400. The traditional
remedy for a claim of actual innocence based on new evidence is executive clemency. Id. at 417. As
such, the Fifth Circuit has repeatedly held that claims of actual innocence are not cognizable on federal
habeas review. Dowthitt v. Johnson, 230 F.3d 733, 741 (5th Cir. 2000), cert, denied, 532 U.S. 915
(2001); Graham v. Johnson, 168 F.3d 762, 788 (5th Cir. 1999); Lucas v. Johnson, 132 F.3d 1069,
1075 (5th Cir. 1998). Petitioner does not have a basis for habeas corpus relief to the extent that he is
merely arguing that he is actually innocent of the charges. Actual innocence, if proved, serves as a
gateway through which a petitioner may pass to prove his constitutional claims, but Petitioner has not
shown a viable claim of actual innocence.
5

i

* Case: 4:17-cv-00326-ALM-CAN

Document#: 27-1

Date Filed: 05/23/2019

Page 6 of 8

As a final matter, the Court once again observes that Petitioner pled guilty. He admitted that
*

he committed the offenses. The state trial court found that his guilty pleas were entered knowingly and
voluntarily. SHCR-01 at 230-31; SHCR-02 at 189; SHCR-03 at 187.[The Ninth Circuit has observed
that while pleading guilty does not foreclose the possibility of a finding of actual innocence, a
petitioner’s claim is seriously undermined by his entry of a guilty plea. Chestang v. Sisto, 522 F.
App’x 389, 390 (9th Cir. 2013). Many courts have been unwilling to allow prisoners to invoke
McQuiggin after pleading guilty. See Teal v. Quintana, No. 5:14-230-JMH, 2014 WL 4435968, at *5
(E.D. Ky. Sept. 9,2014) (Petitioner’s guilty plea dispels any notion that he is eligible to assert a viable
claim of actual innocence under the McQuiggin rationale); Sidener v. United States, No. 3:11-CV- '
03085, 2013 WL 4041375, at *3 (C.D. Ill. Aug. 8, 2013) (Rejecting McQuiggin claim because
“Petitioner’s admission to the factual basis demonstrates that Petitioner cannot make a showing of
\

actual innocence. Therefore, the actual innocence ‘gateway’ for allowing consideration of otherwise
time-barred claims is not available in Petitioner’s case.”); United States v. Cunningham, No. H-123147,2013 WL 3899335, at *4 n.3 (S.D. Tex. July 27,2013) (Because Petitioner pled guilty and has
made no showing of actual innocence, McQuiggin in not available); Barton v. Quarterman^No. H-071192,2007 WL 3228107, at *15 (S.D. Tex. Oct. 30,2007) (Petitioner’s “voluntary guilty plea weighs
heavily against his belated claim ofactual innocence”); Pannell v. Cockrell, No. 3:01 -CV-1931L, 2002
WL 1155860, at *4 (N.D. Tex. May 29,2002) (“This voluntary guilty plea negates any claim of actual
innocence.”). Petitioner knowingly and voluntarily pled guilty, and he has not made a viable showing
of actual innocence; thus, the actual innocence gateway for consideration of his claims is not available^
In conclusion, the petitions for a writ of habeas corpus are time-barred. Petitioner cites actual
innocence in an effort to overcome the statute of limitations, but he has not satisfied the Supreme
Court’s requirements in McQuiggin and Schlup in order to show actual innocence.
Certificate of Appealability
“A state prisoner whose petition for a writ of habeas corpus is denied by a federal district court
does not enjoy an absolute right to appeal.” Buckv. Davis, 480 U.S.___, 137 S. Ct. 759,773 (2017).
Instead, under 28 U.S.C. § 2253(c)(1), he must first obtain a certificate of appealability (“COA”) from
6

-■

~ 'Case: 4:17-cv-00326-ALM-CAN

Document#: 27-1

Date Filed: 05/23/2019

Page 7 of 8

a circuit justice or judge. Id. Although Petitioner has not yet filed a notice of appeal, the court may
address whether he would be entitled to a certificate of appealability. See Alexander v. Johnson, 211
F.3d 895, 898 (5th Cir. 2000) (A district court may sua sponte rule on a certificate of appealability
because “the district court that denies a petitioner relief is in the best position to determine whether the
petitioner has made a substantial showing of a denial of a constitutional right on the issues before the
court. Further briefing and argument on the very issues the court has just ruled on would be
repetitious.”).
A certificate of appealability may issue only if a petitioner has made a substantial showing of
the denial of a constitutional right. 28 U.S.C. § 2253(c)(2). To make a substantial showing, the
petitioner need only show that “jurists of reason could disagree with the district court’s resolution of
his constitutional claims or that jurists could conclude the issues presented are adequate to deserve
encouragement to proceed further.” Miller-El v. Cockrell, 537 U.S. 322, 327 (2003). The Supreme
Court recently emphasized that the COA inquiry “is not coextensive with merits analysis” and “should
be decided without ‘full consideration of the factual or legal bases adduced in support of the claims. ’”
Buck, 137 S. Ct. at 773 (quoting Miller-El, 537 U.S. at 336). Moreover, “[wjhen the district court
denied relief on procedural grounds, the petitioner seeking a COA must further show that ‘jurists of
reason would find it debatable whether the district court was correct in its procedural ruling.”’
Rhoades v. Davis, 852 F.3d 422,427 (5th Cir. 2017) (quoting Gonzalez v. Thaler, 565 U.S. 134,14041 (2012)).
In this case, it is respectfully recommended that reasonable jurists could not debate the denial
of the Petitioner’s § 2254 petition on procedural grounds, nor find that the issues presented are
adequate to deserve encouragement to proceed. Miller-El v. Cockrell, 537 U.S. 322,327 (2003) (citing
Slack, 529 U.S. at 484). Accordingly, it is recommended that the Court find that the Petitioner is not
entitled to a certificate of appealability as to his claims.

7

'Case: 4:17-cv-00326-ALM-CAN

Document#: 27-1

Date Filed: 05/23/2019

Page 8 of 8

Recommendation
It is accordingly recommended that the above-styled and numbered petitions for a writ of
habeas corpus be denied and that the cases be dismissed with prejudice as time-barred. A certificate
of appealability should be denied.
Within fourteen (14) days after service of the magistrate judge’s report, any party must serve
and file specific written objections to the findings and recommendations of the magistrate judge. 28
U.S.C. § 636(b)(1)(C). In order to be specific, an objection must identify the specific finding or
recommendation to which objection is made, state the basis for the objection, and specify the place in
the magistrate judge’s report and recommendation where the disputed determination is found. An
objection that merely incorporates by reference or refers to the briefing before the magistrate judge is
not specific.
Failure to file specific, written objections will bar the party from appealing the unobjected-to
factual findings and legal conclusions of the magistrate judge that are accepted by the district court,
except upon grounds of plain error, provided that the party has been served with notice that such
consequences will result from a failure to object. See Douglass v. United Servs. Auto. Ass ’n, 79 F.3d
1415, 1417 (5th Cir. 1996) (en banc), superceded by statute on other grounds, 28 U.S.C. § 636(b)(1)
(extending the time to file objections from ten to fourteen days).
SIGNED this 23rd day of May, 2019.

Christine A. Nowak
UNITED STATES MAGISTRATE JUDGE

8

Additional material
from this filing is
available in the
Clerk's Office.

